No. 19-549
IN THE SUPREME COURT OF THE UNITED STATES
HANNAH P., PETITIONER
V.

JOSEPH MAGUIRE, ACT[NG DIRECTOR, OFFICE OF THE
DIRECTOR OF NATIONAL INTELLIGENCE
CERTIFICATE OF SERVICE
It is hereby certified that all parties required to be served have been served with copies of
the BRIEF FOR THE RESPONDENT IN OPPOSITION, via first-class mail, postage
prepaid, this 31st day of January 2020.
[See Attached Service List]
As required by Supreme Court Rule 33.1(h), I certify that the document contain 5408 words,
excluding the parts of the document that are exempted by Supreme Court Rule 33.1(d). I declare
under penalty of perjury that the foregoing is true and correct. Executed on
January 31, 2020.

Noel J. Francisco
Solicitor General
Counsel of Record
Department of Justice
Washington, D.C. 20530-0001
(202) 514-2217
January 31, 2020
Due to the continuing delay in receiving incoming mail at the Department of Justice, in
addition to mailing your brief via first-class mail, we would appreciate a fax or email copy of
your brief If that is acceptable to you, please fax your brief to Charlene Goodwin, Case
Management Supervisor, Office of the Solicitor General, at (202) 514-8844, or email at
SupremeCtBriefs@USDOJ.gov. Ms. Goodwin's phone number is (202) 514-2217 or 2218.
Thank you for your consideration of this request.

19-0549
HANNAH P.
JOSEPH MAGUIRE, ACTING DIR. OF THE DIR. OF
NATIONAL INTELLIGENCE

TIMOTH BOSSON
BOS SON LEGAL GROUP, PC
823 SOUTH KING STREET
LEESBURG , VA 20175
DANIEL R. ORTIZ
UNIVERSITY OF VIRGINIA SCHOOL OF LAW
SUPREME COURT LITIGATION CLINIC
580 MASSIE RD.
CHARLOTTESVILLE, VA 22903
434-924-3127
DORTIZ@LAW.VIRGINIA.EDU
MARK T. STANCIL
ROBBINS, RUSSELL, ENGLERT, ORSECK,
UNTEREINER & SAUBER LLP
2000 K STREET, NW
WASHINGTON, DC 20006
202-775-4500
MSTANCIL@ROBBINSRUSSELL.COM

